U.S. Department of Labor 

                       Office of Inspector General—Office of Audit 





                                                                           

                                                                           RECOVERY ACT: OASAM NEEDS TO ENSURE
                                                                           THAT JOB CORPS CONTRACT MODIFICATIONS
                                                                           MEET RECOVERY ACT REQUIREMENTS




                                                                                             Date Issued:     March 30, 2010
                                                                                          Report Number:    18-10-005-07-001
                                                                       

U.S. Department of Labor                                      March 2010
Office of Inspector General
Office of Audit                                               RECOVERY ACT: OASAM NEEDS TO ENSURE
                                                              THAT JOB CORPS CONTRACT
                                                              MODIFICATIONS MEET RECOVERY ACT
BRIEFLY…                                                      REQUIREMENTS
Highlights of Report Number: 18-10-005-07-001,
Recovery Act: OASAM Needs to Ensure that Job
Corps Contract Modifications Meet Recovery Act                WHAT OIG FOUND
Requirements to the Assistant Secretary for
Administration and Management.                                The OIG found that OASAM awarded the Job
                                                              Corps lease and 10 Job Corps contracts in our
WHY READ THE REPORT                                           sample based on merit; however, OASAM could
                                                              not demonstrate that one of the 33 sampled
The American Recovery and Reinvestment Act                    modifications totaling $122,103 was merit based.
(Recovery Act) signed into law February 17, 2009,
provided Job Corps $250 million for construction,             While OASAM met Recovery Act-specific
operations and administrative costs. Job Corps                contracting requirements when awarding the
plans to award $211.6 million (85 percent) of the             sampled lease, we noted that two modifications
funds for the construction, rehabilitation, and               obligated $122,523 for projects not eligible for
acquisition of Job Corps Centers; award $35.9                 Recovery Act funding. In addition, 11 modifications
million (14 percent) to enhance and develop                   and 4 contracts did not include one or more of the
green-collar job training for careers in the                  following required clauses: Buy American Act,
automotive, construction, and manufacturing                   Recovery Act Reporting, GAO/IG Access or
industries, and to further the incorporation of               Whistleblower Protection.
energy-efficient practices in Job Corps Centers;
and spend the remaining $2.5 million (1 percent)              Job Corps has plans in place to ensure Recovery
for administration of Recovery Act funds. As of               Act funds are awarded and distributed by June 30,
September 30, 2009, Job Corps awarded 10                      2010.
contracts totaling $54.2 million, awarded a lease
for $82 million, and made modifications to 72
existing contracts totaling $14.4 million.                    WHAT OIG RECOMMENDED

WHY OIG CONDUCTED THE AUDIT                                   We made four recommendations to the Senior
                                                              Accountable Official to issue a modification or re-
Our audit objectives were to answer the following             compete the work for the modification totaling
questions:                                                    $122,103 that OASAM could not demonstrate was
                                                              issued based on merit; provide documentation that
    1. Did OASAM award Job Corps Recovery Act                 $122,523 of Recovery Act funds were de-obligated
    contracts, leases, and modifications based on             for the two ineligible projects; modify the
    merit?                                                    contracting actions that did not properly include
                                                              Recovery Act required clauses; and re-
    2. Did OASAM meet Recovery Act-specific                   communicate and monitor the Department’s policy
    contracting requirements?                                 for using the pre-award checklist.

    3. Does Job Corps have plans in place to                  The Senior Accountable Official for the American
    ensure Recovery Act funds are awarded and                 Recovery and Reinvestment Act of 2009 agreed
    distributed by the June 30, 2010 deadline?                with the findings and recommendations, and has
                                                              either planned or taken actions to address the
READ THE FULL REPORT                                          recommendations to ensure compliance with
To view the report, including the scope,                      contracting requirements under the Recovery Act.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2010/18-10-005-07-
001.pdf.
                                                     U. S. Department of Labor – Office of Inspector General 

                                                                                                             



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective 1 — Did OASAM award Recovery Act contracts, leases, and
              modifications based on merit? ........................................................... 4

         Finding 1 — OASAM did not document that a Recovery Act modification
                     was awarded based on merit. ......................................................... 4

Objective 2 — Did OASAM meet Recovery Act specific contracting
              requirements? ...................................................................................... 5

         Finding 2 — Two Job Corps center repair projects were not eligible for
                      Recovery Act funding .. ................................................................... 5
         Finding 3 — OASAM did not always incorporate required FAR clauses .............. 7

Objective 3 — Does Job Corps have plans in place to ensure Recovery
              Act Funds are awarded and distributed by June 30, 2010? ............ 8


Recommendations ........................................................................................................ 9

Exhibits
         Exhibit 1 Job Corps Recovery Act Contracts and Leases with Incidences
            of Non-Compliance ....................................................................................... 13
         Exhibit 2 Job Corps Recovery Act Contract Modifications with Incidences
            of Non-Compliance ....................................................................................... 15

Appendices
         Appendix A Background ..................................................................................... 19
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 21
         Appendix C Acronyms and Abbreviations .......................................................... 25
         Appendix D Department Response to Draft Report............................................ 27
         Appendix E Acknowledgements ......................................................................... 29




                                                             2009 Recovery Act – Job Corps Construction Contracts
                                                                                     Report No. 18-10-005-07-001
             U. S. Department of Labor – Office of Inspector General 

                                                                     








    PAGE INTENTIONALLY LEFT BLANK 





                  2009 Recovery Act – Job Corps Construction Contracts
                                          Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 

                                                                                             


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 30, 2010

                        Assistant Inspector General’s Report



Edward C. Hugler
Senior Accountable Official
  for the American Recovery and Reinvestment Act of 2009
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The American Recovery and Reinvestment Act (Recovery Act), signed into law
February 17, 2009, provided Job Corps $250 million for construction, operations and
administrative costs. Job Corps plans to award $211.6 million (85 percent) of the funds
for the construction, rehabilitation, and acquisition of Job Corps Centers; award $35.9
million (14 percent) to enhance and develop green-collar job training for careers in the
automotive, construction, and manufacturing industries, and to further the incorporation
of energy-efficient practices in Job Corps Centers; and spend the remaining $2.5 million
(1 percent) for administration of Recovery Act funds. As of September 30, 2009, Job
Corps awarded 10 contracts totaling $54.2 million, awarded a lease for $82 million, and
made modifications to 72 existing contracts totaling $14.4 million.

To ensure Federal contracts are awarded based on merit, the Federal Acquisition
Regulation (FAR) requires Federal agencies to publicize and solicit contract
requirements, evaluate the proposals based on established award factors, and award
contracts that provide a fair and reasonable price or best value to the Federal
government. In addition, modifications are required to be within the scope of the
original contract. The Recovery Act imposed unique reporting and transparency
requirements in that specific contracting requirements are to be followed. Consequently,
FAR now requires alternate Buy-American for Construction Materials and GAO/OIG
Access clauses and new Recipient Reporting and Whistleblower Protection clauses for
recipients of Recovery Act funds. The Recovery Act prohibits use of Recovery Act funds
for certain projects, such as swimming pools and golf courses.

The Office of the Assistant Secretary for Administration and Management (OASAM) is
generally responsible for the overall implementation of the Department’s procurement
program and ensures that the program complies with the appropriate laws and
regulations. OASAM has overall responsibility for Job Corps procurement. Job Corps is
responsible for developing Recovery Act spending plans.



                                            2009 Recovery Act – Job Corps Construction Contracts
                                        1                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 

                                                                                             


Our audit objectives were to answer the following questions:

1. Did OASAM award Job Corps Recovery Act contracts, leases, and modifications
    based on merit?

2. Did OASAM meet Recovery Act-specific contracting requirements?

3. Does Job Corps have plans in place to ensure Recovery Act funds are awarded and
  distributed by the June 30, 2010 deadline?

The audit covered contracting actions taken from the date the Recovery Act was signed
into law on February 17, 2009, until September 30, 2009. We reviewed a statistical
sample of 44 (53 percent) of the 83 contracting actions, totaling $142.5 million (95
percent) of the $150.6 million awarded. Our sample included one lease totaling $82
million, 10 contracts totaling $54.2 million, and 33 modifications totaling $6.3 million.
The lease was the single largest Recovery Act dollar obligation by Job Corps.

We reviewed Job Corps and OASAM policies and procedures through February 5,
2010. We conducted on-site work at the Job Corps National Office, OASAM National
Office, and the Philadelphia and Boston regional contracting offices. To accomplish our
audit objectives, we interviewed OASAM and Job Corps officials and staff to gain an
understanding of the Job Corps and OASAM procurement process; we applied
applicable sections of the Recovery Act, FAR, OMB, and DOL guidance when reviewing
contracting actions; and we reviewed Job Corps’ spending plans.

We conducted this performance audit in accordance with generally accepted
government auditing standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Our objectives, scope, methodology, and criteria are
detailed in Appendix B.

RESULTS IN BRIEF

Our audit revealed OASAM awarded the Job Corps lease and 10 Job Corps contracts in
our sample based on merit; however, OASAM could not demonstrate that one of the 33
sampled modifications totaling $122,103 was merit based. The modification did not
contain a Statement of Work (SOW). While OASAM had instituted a policy to use a pre-
award checklist and the contracting office’s policy was for one-level higher supervisory
review, there was no evidence that these policies were followed. As such, OASAM
could not demonstrate that this modification was aligned with the original contract and
did not need to be re-competed.

While OASAM met Recovery Act specific contracting requirements when awarding the
sampled lease, 4 of 10 sampled contracts did not include the proper GAO/OIG access


                                            2009 Recovery Act – Job Corps Construction Contracts
                                        2                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 

                                                                                             


clause and Whistleblower clauses, and 12 of 33 sampled modifications did not meet
one or more Recovery Act contracting requirements. (See Exhibits 1 and 2.)

Two modifications totaling $122,523 obligated funds for projects we determined were
not eligible for Recovery Act funding: $118,229 to make repairs to a building that
encloses a swimming pool and $4,294 to make repairs to a miniature golf course.
Management was responsive to our concerns and noted that these funds though
obligated had not yet been spent, and would be de-obligated and funded by other Job
Corps funding sources.

We also noted that 11 modifications and 4 contracts did not include required contract
clauses due to a lack of management oversight. These clauses are intended to mitigate
the risks of not buying American products, not reporting the results of the use of
Recovery Act funds, not allowing GAO/OIG monitoring, and not ensuring whistleblower
protections. Without inclusion of required contract clauses, OASAM cannot ensure that
Recovery Act funds are not used for projects that use iron, steel, and manufactured
goods that are produced outside the United States and do not report results of
Recovery Act funds. In addition, OASAM can not be assured that recipients of
Recovery Act funds are aware of the Comptroller General and agency Inspector
Generals’ authorization to audit Recovery Act funded contracts and subcontracts and
State and local government and contractor whistleblower protections.

Job Corps has plans in place to ensure Recovery Act funds are awarded and distributed
by June 30, 2010. Job Corps’ has an OMB-approved spending plan and has developed
a tracking mechanism to monitor Recovery Act funds. Job Corps has already obligated
67 percent of the $250 million appropriated by the Recovery Act.

While Job Corps has plans in place to award and distribute Recovery Act funds by
June 30, 2010, OASAM did not always ensure that Job Corps contract modifications
were awarded in compliance with the Recovery Act. Leases and contracts were
generally awarded in compliance with the Recovery Act; however, modifications did not
comply with numerous Recovery Act contracting requirements. Our audit identified one
modification totaling $122,103 that was not awarded based on merit and two
modifications totaling $122,523 that were awarded for projects not eligible for Recovery
Act funding. By de-obligating these funds, they can be put to better use for eligible
Recovery Act activities. Finally, we found that all required contracting clauses were not
included in the modifications

We made four recommendations to the Senior Accountable Official to issue a
modification or re-compete the work for the modification totaling $122,103 that OASAM
could not demonstrate was issued based on merit; provide documentation that
$122,523 of Recovery Act funds were de-obligated; modify the contracting actions that
did not properly include Recovery Act required clauses; and re-communicate and
monitor the Department’s policy for using the pre-award checklist.




                                             2009 Recovery Act – Job Corps Construction Contracts
                                         3                           Report No. 18-10-005-07-001
                                       U. S. Department of Labor – Office of Inspector General 

                                                                                               


DEPARTMENT RESPONSE

In response to the draft report, the Senior Accountable Official for the American
Recovery and Reinvestment Act of 2009 agreed with the findings and recommendations
and has either planned or taken actions to address the recommendations to ensure
compliance with requirements under the Recovery Act. The Department’s response is
included in its entirety as Appendix D.


RESULTS AND FINDINGS

Objective 1 — Did OASAM award Job Corps Recovery Act contracts, leases, and
              modifications based on merit?

       OASAM awarded Job Corps Recovery Act contracts and leases based on
       merit. However, OASAM could not demonstrate that 1 of the 33
       modifications totaling $122,103 was merit-based.

Finding 1 – OASAM did not document that a Recovery Act modification was
awarded based on merit.

In 1 of the 33 sampled modifications, OASAM could not demonstrate that the
modification was within the scope of the original contract. Consequently, OASAM could
not show that it was a merit-based award. The modification, totaling $122,103, did not
contain a SOW. The original contract had established two cost categories —
Labor/Administrative Cost and Travel — to obtain services related to administration of
Job Corps construction projects. However, the modification established a new cost
category simply labeled “American Recovery and Reinvestment Act Funds” without a
SOW or any further description of additional costs to be included in the new cost
category. While OASAM had instituted a policy to use a pre-award checklist and the
contracting office had a policy for one-level higher supervisory review, there was no
evidence that these policies were followed.

For another modification totaling $116,925, OASAM did not provide the complete
original contract file for our review during fieldwork. Therefore, our initial results reported
that, without the requisite contract documentation, OASAM could not demonstrate the
modification was within the scope of the original contract and did not need to be re-
competed. When we met with OASAM officials subsequent to completing fieldwork, they
provided the complete original contract file, which we reviewed and determined the
modification in question was within the scope of the original contract and, therefore, was
awarded based on merit.

The FAR requires all acquisitions to be competed unless they are within the scope of
the original contract. FAR states:




                                               2009 Recovery Act – Job Corps Construction Contracts
                                           4                           Report No. 18-10-005-07-001
                                      U. S. Department of Labor – Office of Inspector General 

                                                                                              


      6.001 Applicability.

      This part applies to all acquisition except—
      …(c) Contract modifications, including the exercise of priced options that
      were evaluated as part of the initial competition (see 17.207(f)), that are
      within the scope and under the terms of the existing contract;

      6.101 Policy.

      (a) Title 10, United States Code (U.S.C.) Section 2304 and Title 41,
      U.S.C., Section 253 require, with certain limited exceptions (see Subparts
      6.2 and 6.3), that contracting officers shall promote and provide for full and
      open competition in soliciting offers and awarding Government contracts.

Furthermore, OMB’s Updated Implementing Guidance for American Recovery and
Reinvestment Act of 2009, Subsection 6.1, paragraph (2), emphasizes competition for
the Recovery Act:

      Although the law calls on agencies to commence expenditures and
      activities as quickly as possible consistent with prudent management, this
      statement, by itself, does not constitute a sufficient justification to support
      award of a federal contract on a non-competitive basis…. Competition is
      the cornerstone of our acquisition system. The benefits of competition are
      well established. Competition saves money for the taxpayer, improves
      contractor performance, curbs fraud, and promotes accountability for
      results. The President's Memorandum of March 4, 2009, on "Government
      Contracting" stated that it is the policy of the Federal Government that
      executive agencies shall not engage in noncompetitive contracts except in
      those circumstances where their use can be fully justified and where
      appropriate safeguards are in place to protect the taxpayer.

As a result, $122,103 in Recovery Act funds was not properly obligated. OASAM could
not demonstrate that the public funds were expended in accordance with the
President’s commitment for responsible spending of Recovery Act funds.

Objective 2 — Did OASAM meet Recovery Act-specific contracting requirements?

      While OASAM met Recovery Act specific contracting requirements when
      awarding a sampled lease, 4 of 10 sampled contracts did not include the
      proper GAO/OIG access clause and Whistleblower clauses, and 12 of 33
      sampled modifications did not meet one or more Recovery Act contracting
      requirements.




                                             2009 Recovery Act – Job Corps Construction Contracts
                                         5                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 

                                                                                             


Finding 2 – Two Job Corps Center Repair Projects Were not Eligible for
Recovery Act Funding.

Of the 33 modifications reviewed, we identified two modifications that funded projects at
two Job Centers that included repairs not eligible for Recovery Act funding. One
modification was for $118,229 to make repairs to a building that houses a swimming
pool at a Job Corps Center. Specifically, the funds were for repairing heating, air
conditioning, and interior lighting in a “Swimming Pool Building.” The second
modification was for $4,294 to renovate a miniature golf course at a Job Corps Center
as a part of a supplemental Career Technical Skills Training (CTST) Green Project.

The Job Corps program operates facilities that provide enrollees with a supervised
program of education, vocational training, work experience, physical rehabilitation and
development, and counseling. Many of the Centers include residential facilities that
have recreational activities for the students.

The Recovery Act specifically prohibits funds to be used for any golf course, or
swimming pool. In Section 1604, Recovery Act states:

      None of the funds appropriated or otherwise made available in this Act
      may be used by any State or local government, or any private entity, for
      any casino or other gambling establishment, aquarium, zoo, golf course,
      or swimming pool.

A Presidential Memorandum, dated March 20, 2009, extended the coverage of Section
1604 of the Recovery Act and specifically prohibited Federal agencies to obligate funds
for the purposes listed in Section 1604 of the Recovery Act. The Presidential
Memorandum states:

      Sec. 2. Avoiding Funding of Imprudent Projects:

      Funds under the Recovery Act shall not be committed, obligated, or
      expended by any executive department or agency, and shall not be used
      by any State or local governmental or private grantee or awardees, to
      support projects of the similar type described in section 1604 of Division A
      of the Recovery Act, which states that "[n]one of the funds appropriated or
      otherwise made available in this Act may be used by any State or local
      government, or any private entity, for any casino or other gambling
      establishment, aquarium, zoo, golf course, or swimming pool."

Management did not believe that the Recovery Act prohibited the obligations in question
because the funding did not involve renovation to the pool itself, and because the
miniature golf course project involved the removal of environmental hazards and safety-
related infrastructure deficiencies. However, heating, air conditioning, and lighting are
integral parts of an indoor swimming pool and cannot be separated from the pool itself.



                                            2009 Recovery Act – Job Corps Construction Contracts
                                        6                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 

                                                                                             


Additionally, the Recovery Act prohibition does not make an exception for the nature of
repairs being made to the miniature golf course

Although these repairs appear to be legitimate costs to the Job Corps program, we
concluded that Recovery Act funds should not be used for these specific repairs.
Management was responsive to our concerns and noted that these funds, though
obligated, had not yet been spent, and would be de-obligated and funded by other Job
Corps funding sources.


Finding 3 – OASAM did not always incorporate required FAR clauses.

In 11 modifications and 4 contracts, OASAM did not include one or more of the
appropriate FAR clauses required by the Recovery Act. (See Exhibits 1 and 2.)
Specifically, we noted:
    • 7 modifications did not have the proper special Buy-American Act – Construction
       Materials clause
    • 3 modifications did not have the Recipient Reporting clause
    • 4 modifications and 4 contracts did not have the expanded GAO/IG access to
       contractor records clause
    • 3 modifications and 1 contract did not have the proper Whistleblower Protection
       clause

FAR requires the following clauses for Recovery Act contracting actions:

      Buy-American Act – Construction Materials

      Section 1605 of the Recovery Act, entitled “Buy American,” prohibits the
      use of Recovery Act funds for any construction, alteration, maintenance,
      or repair of a public building or public works unless all of the iron, steel,
      and manufactured goods used in the projects are produced in United
      States. To implement this provision, FAR now requires alternate clauses
      in FAR 52.225-21, 52.225-22, 52.225-23 or 52.225.24 to be included in all
      construction contracts using Recovery Act funds.

      Reporting Requirements

      Section 1512 of the Recovery Act, also known as “Job Accountability Act,”
      requires contractors who receive awards (or modifications to existing
      awards) funded by Recovery Act to report quarterly on the use of funds.
      To implement this provision, FAR added a new clause in FAR 52.204-11
      and requires it to be included in solicitations and contracts funded by
      Recovery Act, except for classified solicitations and contracts.




                                            2009 Recovery Act – Job Corps Construction Contracts
                                        7                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 

                                                                                             


      GAO/IG Access

      Sections 902, 1514 and 1515 of the Recovery Act serves to “prevent the
      fraud, waste, and abuse” of Recovery Act funds through the review and
      audit of contracts using such funds. In implementing this provision, FAR
      extended Comptroller General authority to audit not only prime contracts
      but also subcontracts and also to interview contractor and subcontractor
      personnel. FAR also extended the same authority to agency inspector
      generals, with the exception of interviewing subcontractor employees.
      Consequently, FAR requires the following clauses to be incorporated in
      solicitations and contracts using Recovery Act funds: FAR 52.212-5,
      Alternate II clause for commercial items; FAR 52.215-2, Alternate I clause
      for Simplified Acquisition Procedures and contracting by negotiation; and
      FAR 52.214-26, Alternate I clause for sealed bidding.

      Whistleblower Protection

      Section 1553 of the Recovery Act, Protecting State and Local Government
      and Contractor Whistleblowers, prohibits non-Federal employers from
      discharging, demoting, or discriminating against an employee as a reprisal
      for disclosing information. To implement this provision, a clause was
      added in FAR 52.203-15 that requires Federal agencies to include the
      clause in all solicitations and contracts funded by Recovery Act funds.

The contract pre-award checklist was intended to ensure required FAR clauses were
included in the contracts. Lack of adequate management oversight resulted in the
checklists being used inconsistently, as well as a FAR requirement being
misinterpreted. We found that not all of the OASAM contracting offices were using the
pre-award checklist. Furthermore, one contracting office stated that the Buy-American
for construction clause was not applicable to modifications for construction and
rehabilitation projects at Job Corps centers because the original contracts were not
construction contracts, but rather, were service contracts. Without inclusion of required
contract clauses, OASAM cannot ensure that Recovery Act funds are not used for
projects that use iron, steel, and manufactured goods that are produced outside the
United States and do not report results of Recovery Act funds. In addition, OASAM can
not be assured that recipients of Recovery Act funds are aware of the Comptroller
General and agency Inspector Generals’ authorization to audit Recovery Act funded
contracts and subcontracts and State and local government and contractor
whistleblower protections.

Objective 3 — Does Job Corps have plans in place to ensure Recovery Act funds
             are awarded and distributed by the June 30, 2010 deadline?

Job Corps has an OMB-approved spending plan in place to ensure Job Corps Recovery
Act funds are awarded and distributed by June 30, 2010. Job Corps also developed a
tracking mechanism that accounts for planned, pending, and future Recovery Act funds


                                            2009 Recovery Act – Job Corps Construction Contracts
                                        8                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 



for construction, operations and administrative activities. The Job Corps Recovery Act
tracking mechanism also provides oversight to Job Corps officials to ensure obligations
stay within the boundaries set within the Recovery Act legislation. Our analysis of Job
Corps’ spending activities occurring through November 30, 2009, showed Job Corps
has already obligated 67 percent of the $250 million appropriated by the Recovery Act.

RECOMMENDATIONS

We recommend that the Senior Accountable Official for the American Recovery and
Reinvestment Act of 2009:

1. For the modification totaling $122,103 that OASAM could not demonstrate was
   issued based on merit, either issue a modification incorporating a SOW that is within
   the scope of the original contract or re-compete the work.

2. Provide documentation that $122,523 of Recovery Act funds was de-obligated.

3. Modify the contracting actions that did not properly include Recovery Act required
   clauses.

4. Re-communicate and monitor the Department’s policy for using the pre-award
   checklist.

We appreciate the cooperation and courtesies that OASAM and Job Corps personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                            2009 Recovery Act – Job Corps Construction Contracts
                                        9                           Report No. 18-10-005-07-001
         U. S. Department of Labor – Office of Inspector General 

                                                                 





PAGE INTENTIONALLY LEFT BLANK




                2009 Recovery Act – Job Corps Construction Contracts
           10                           Report No. 18-10-005-07-001
             U. S. Department of Labor – Office of Inspector General 





Exhibits 







                    2009 Recovery Act – Job Corps Construction Contracts
               11                           Report No. 18-10-005-07-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                2009 Recovery Act – Job Corps Construction Contracts
           12                           Report No. 18-10-005-07-001
                                                 U. S. Department of Labor – Office of Inspector General 



                                                                                                  Exhibit 1

Job Corps Recovery Act Contracts and Leases with Incidences of Non-Compliance


                                                                     Proper
                                                                      Buy      Expanded     Recipient
                                                                    American    GAO/OIG     Reporting      Proper
                                               Not     Award for     Clause    Monitoring    Clause     Whistleblower
                                              Merit    Prohibited      Not     Clause Not      Not       Clause Not
              Contracts          Amount       Based      Items      Included    Included    Included      Included


        1.    DOLJ099628885 1   $81,998,806


        2.    DOLJ099628902      $990,069


        3     DOLJ099629008     $23,077,000

                                                                                  X
        4     DOLJ099628993     $3,270,771


        5     DOLJ099629099     $3,432,100


        6.    DOLJ099629143     $3,293,903

                                                                                  X                         X
        7.    DOLF099629309      $468,720


        8.    DOLJ099628917     $7,783,648

                                                                                  X
        9.    DOLJ099629381     $10,425,000

                                                                                  X
        10.   DOLJU099A29434     $495,000


        11.   DOLJ0996296038     $917,000

                                                                                  4                         1
                 Total          136,152,017
    





1   Lease Agreement


                                                           2009 Recovery Act – Job Corps Construction Contracts
                                                      13                           Report No. 18-10-005-07-001
             U. S. Department of Labor – Office of Inspector General 





    PAGE INTENTIONALLY LEFT BLANK 










                    2009 Recovery Act – Job Corps Construction Contracts
               14                           Report No. 18-10-005-07-001
                                                                     U. S. Department of Labor – Office of Inspector General 



                                                                                                                                           Exhibit 2

Job Corps Recovery Act Contract Modifications with Incidences of Non-Compliance

 	                                      

                                                                                              Proper             Expanded         Recipient
                                                                                               Buy                GAO/OIG         Reporting          Proper
                                                            Not          Award for          American             Monitoring        Clause         Whistleblower
               Contract/                                   Merit         Prohibited         Clause Not           Clause Not          Not           Clause Not
             /Modification                  Amount         Based           Items             Included             Included        Included          Included
     1.      DOLJ07PA00002 (20)              $492,000                                             X
     2.      DOLJ04PA00004 (53)               $48,653                                             X
         3   DOLJ05PA00001 (39)              $100,000                                             X
     4.      DOLJ06PA00001 (37)              $250,202                                             X
     5.      DOLJ08PA00005 (11)              $798,829                        X1                   X
     6.      DOLJ08PA00001 (10)              $419,275                                             X
     7.      DOLJ09PA00002 (5)               $470,939                                             X
     8.      DOLJ06PA00001 (40)               $50,388
     9.      DOLJ06PA00007 (30)               $43,765
     10.     DOLJ06PA00005 (22)                $4,390
     11.     DOLJ09PA00003 (2)                $30,990
     12.     DOLJ06PA00004 (28)               $11,600
     13.     DOLJ06PA00002 (29)               $24,799                        X2
     14.     DOLJ06PA00003 (32)               $15,017
     15.     DOLJ07PA00002 (22)               $53,780
     16.     DOLJ04QA00003 (29)                $5,954
     17.     DOLJ05QA00007 (28)              $257,396
     18.     DOLJ06QA00001 (22)              $943,890
     19.     DOLJ05QA00010 (28)              $182,464
     20.     DOLJ05QA00002 (35)               $17,977
     21.     DOLJ07QA00001 (16)               $11,360
     22.     DOLJ09QA00003 (2)                $89,891
     23.     DOLJ05QA00013 (24)               $23,109
     24.     DOLJ05QA00002 (37)                $6,500
     25.     DOLJ06QA00004 (20)               $16,850
     26.     DOLJ05QA00011 (28)               $29,950
     27.     DOLJ08QA00002 (12)                $3,580
     28      DOLJ05QA00006 (28)               $21,625
     29.     DOLJ09QA00002 (3)                $23,598
     30.     DOLJ06QA00001 (25)              $115,862                                                                 X                X                   X
     31.     DOLJ089627842 (4)               $122,103         X                                                       X                X                   X
     32.     DOLJ089626797 (8)               $116,925                                                                 X
     33.     DOLJ099628680 (3)              $1,480,000                                                                X                X                   X
                Total                       $6,283,661        1              2                    7                   4                3                   3

1.   	        $118,229 of total $798,829 awarded ARRA funds were improperly used for repairs on a building that houses a swimming pool. The spending activity
              is prohibited by section 1604 of Recovery Act. Refer to pages 5 and 6 in the Results and Findings section of the report. Finding 2 identifies the
              funding of project as prohibited by Recovery act legislation.

2. 	          $4,294 of total $24,799 awarded ARRA funds were improperly used for renovation of miniature golf course. The spending activity is
              prohibited by section 1604 of Recovery Act. Refer to pages 5 and 6 in the Results and Findings section of the report. Finding 2 identifies
              the specific funding of this project as prohibited by Recovery act legislation.


                                                                               2009 Recovery Act – Job Corps Construction Contracts
                                                                          15                           Report No. 18-10-005-07-001
           U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                  2009 Recovery Act – Job Corps Construction Contracts
             16                           Report No. 18-10-005-07-001
               U. S. Department of Labor – Office of Inspector General 





Appendices 





                      2009 Recovery Act – Job Corps Construction Contracts
                 17                           Report No. 18-10-005-07-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK




                2009 Recovery Act – Job Corps Construction Contracts
           18                           Report No. 18-10-005-07-001
                                               U. S. Department of Labor – Office of Inspector General 



                                                                                                Appendix A
Background

The Recovery Act, signed into law February 17, 2009, provided DOL with $70.6 billion,
including $250 million for Job Corps. (See Table 1.)

Table 1: Department of Labor Recovery Act Funding, as of March 12, 2010


                                                                             Amount 2
Program                                                                      (Millions)        Percent

Unemployment Insurance                                                       $65,687            93.00

Training and Employment Services                                                3,950            5.59

State Unemployment Insurance and Employment
Service Operations                                                                 400           0.57

Community Service Employment for Older Americans                                   120           0.17

National Emergency Grants for Health Insurance
Coverage                                                                           150           0.21

Job Corps                                                                          250           0.35

Departmental Management                                                             80           0.11

Total                                                                          $70,637 3         100%

Job Corps plans to award $211.6 million (85 percent) of the funds for the construction,
rehabilitation, and acquisition of Job Corps Centers; $35.9 million (14 percent) to
enhance and develop green-collar job training for careers in the automotive,
construction, and manufacturing industries and to further the incorporation of energy-
efficient practices in Job Corps Centers; and $2.5 million (1 percent) for administration
of Recovery Act funds. As of September 30, 2009, Job Corps awarded 10 contracts
totaling $54.2 million and a lease for $82 million, and made modifications to 72 existing
contracts totaling $14.4 million.


2
  The amounts other than “Unemployment Insurance” were obtained from the Recovery Act dated February 17, 2009.
The “Unemployment Insurance” amount was provided by the Office of the Assistant Secretary for Administration and
Management, DOL, and includes amounts made available for Federal and State Extended Benefits, Extension of
Emergency Unemployment Compensation, 2008, and Federal Additional Unemployment Compensation programs.
3
  The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.

                                                       2009 Recovery Act – Job Corps Construction Contracts
                                                  19                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 



To ensure Federal contracts are awarded based on merit, the FAR requires Federal
agencies to publicize and solicit contract requirements, evaluate the proposals based on
established award factors, and award contracts that are most advantageous to the
Federal government. In addition, modifications are required to be within the scope of the
original contract. The Recovery Act imposed unique reporting and transparency
requirements in that specific contracting requirements are to be followed. Consequently,
FAR now requires alternate Buy-American for Construction Materials and GAO/OIG
Access clauses and new Recipient Reporting and Whistleblower Protection clauses for
recipients of Recovery Act funds. The Recovery Act prohibits use of Recovery Act funds
for certain projects, such as swimming pools and golf courses.

To create jobs and stimulate economic activity across the nation through construction
and rehabilitation of Job Corps centers, Job Corps will utilize Recovery Act funds for
more than 40 shovel-ready projects. The largest single expenditure is a 20-year lease
totaling $82 million with the YWCA of Greater Los Angeles for the construction of a new
Job Corps center in Los Angeles, CA. The lease agreement calls for an advance
payment of $20 million, and subsequent payments — in varying amounts — every year
through 2031. The estimated completion date of the new Job Corps center is
September 1, 2011. The Government has the option to purchase the new building
beginning in the 20th year of the lease term for 60 percent of its fair market value.

In DOL, OASAM is generally responsible for the overall implementation of the
Department’s procurement program and ensures that the program complies with the
appropriate laws and regulations. OASAM has overall responsibility for Job Corps
procurement. Job Corps is responsible for developing Recovery Act spending plans.




                                             2009 Recovery Act – Job Corps Construction Contracts
                                        20                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 



                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

1. Did OASAM award Job Corps Recovery Act contracts, leases, and modifications
    based on merit?

2. Did OASAM meet Recovery Act-specific contracting requirements?

3. Does Job Corps have plans in place to ensure Recovery Act funds are awarded and
    distributed by the June 30, 2010 deadline?

Scope

The audit covered Job Corps contracting actions from February 17, 2009, until
September 30, 2009. We reviewed a statistical sample of 44 (53 percent) of the
universe of 83 contracting actions, which totaled $142.5 million (95 percent) of the
$150.6 million awarded. Our sample included 1 lease totaling $82 million; 10 contracts
totaling $54.2 million; and 33 modifications totaling $6.3 million. The lease was the
single largest Recovery Act dollar obligation by Job Corps. The Recovery Act allows
Job Corps to lease real property as long as construction begins within 120 days of the
enactment of the Recovery Act. Construction on the new Job Corps Center began on
June 10, 2009.

We reviewed Job Corps and OASAM practices, policies, and procedures through
February 5, 2010. We conducted on-site work at the Job Corps and OASAM National
Offices and the OASAM Philadelphia and Boston regional contracting offices.

In planning and performing our audit, we considered OASAM and Job Corps internal
controls by obtaining an understanding of the internal controls over Job Corps Recovery
Act procurements by determining whether internal controls were in place, and assessing
control risk in order to design our procedures for achieving our objectives.
Consequently, we reviewed internal controls as they relate to ensuring that Job Corps
Recovery Act contracts, leases, and modifications were awarded based on merit and
met specific Recovery Act contracting requirements.

We conducted this performance audit in accordance with GAGAS. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                             2009 Recovery Act – Job Corps Construction Contracts
                                        21                           Report No. 18-10-005-07-001
                                     U. S. Department of Labor – Office of Inspector General 



Methodology

We reviewed applicable laws, regulations and guidance and departmental policy and
procedures to determine the requirements for issuing contracting actions. We also
reviewed specific Recovery Act legislation and guidance to determine specific
contracting requirements related to awarding Recovery Act funds. To gain further
understanding of Job Corps and OASAM contracting policies and procedures, we
interviewed officials who provided us with knowledge of management controls for
providing reasonable assurance that Job Corps contracting actions complied with
applicable laws and departmental procedures. Through interviews with Job Corps
officials, we gained knowledge of Job Corps process to track and spend Recovery Act
funds.

To answer our audit objectives we analyzed a sample of Job Corps Recovery Act
contracting actions issued between February 17, 2009, and September 30, 2009, and
reviewed selected attributes to determine if the contracting actions were awarded based
on merit and included specific Recovery Act contracting requirements. We reviewed 1
lease, 10 contracts, and 3 contract modifications in the OASAM National Office; 15
contract modifications in the OASAM Philadelphia regional office; and 15 contract
modifications in the OASAM Boston Regional Office. We also reviewed the Job Corps
Recovery Act spending plan and a breakdown of its implementation.

Sampling Plan

To assess if OASAM awarded Job Corps Recovery Act contracting actions based on
merit and included specific Recovery Act contracting requirements, we statistically
selected a sample of 44 Job Corps Recovery Act contracting actions, from a total
population of 83 Job Corps Recovery Act contracting actions issued from the inception
of the Recovery Act on February 17, 2009, until September 30, 2009. We used a two-
stage stratified cluster sampling methodology to select a random sample with a 95
percent confidence level, 7 percent tolerable error rate, and a 15 percent expected error
rate.

Data Reliability

OASAM provided a listing of Job Corps Recovery Act contract awards as of
September 30, 2009. We determined whether the universe was complete by comparing
it to the total Job Corps Recovery Act obligations reported on the September 30, 2009,
Weekly Financial and Activity Report on Recovery.gov, and the September 30, 2009,
DOL Accounting and Related System monthly report for Job Corps Recovery Act. We
reviewed the universe data and discussed the source database with OASAM officials to
gain understanding of the reliability of the data.




                                             2009 Recovery Act – Job Corps Construction Contracts
                                        22                           Report No. 18-10-005-07-001
                                   U. S. Department of Labor – Office of Inspector General 



Criteria

   •   America Recovery and Reinvestment Act of 2009

   •   White House, Office of the Press Secretary, Memorandum for the Heads of
       Executive Departments and Agencies, dated March 20, 2009 

    

   • Federal Acquisition Regulation

   •   OMB Memorandum, M-09-15, Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009, dated April 3, 2009




                                           2009 Recovery Act – Job Corps Construction Contracts
                                      23                           Report No. 18-10-005-07-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                2009 Recovery Act – Job Corps Construction Contracts
           24                           Report No. 18-10-005-07-001
                                    U. S. Department of Labor – Office of Inspector General 



                                                                                Appendix C
Acronyms and Abbreviations

CTST           Career Technical Skills Training

DOL            Department of Labor

FAR            Federal Acquisition Regulation

GAGAS          Generally Accepted Government Auditing Standards

GAO            Government Accounting Office

OASAM          Office of the Assistant Secretary for Administration and Management

OIG            Office of Inspector General

OMB            Office of Management and Budget

OPS            Office of Procurement Services

Recovery Act   American Recovery and Reinvestment Act of 2009

SOW            Statement of Work

U.S.C.         United States Code




                                           2009 Recovery Act – Job Corps Construction Contracts
                                      25                           Report No. 18-10-005-07-001
             U. S. Department of Labor – Office of Inspector General 





    PAGE INTENTIONALLY LEFT BLANK 








                    2009 Recovery Act – Job Corps Construction Contracts
               26                           Report No. 18-10-005-07-001
                               U. S. Department of Labor – Office of Inspector General 



                                                                           Appendix D
Department Response to Draft Report




                                       2009 Recovery Act – Job Corps Construction Contracts
                                  27                           Report No. 18-10-005-07-001
U. S. Department of Labor – Office of Inspector General 





       2009 Recovery Act – Job Corps Construction Contracts
  28                           Report No. 18-10-005-07-001
                                   U. S. Department of Labor – Office of Inspector General 



                                                                               Appendix E
Acknowledgements

Key contributors to this report were Tracy Katz, S. Jerome Cooper, Y C Lee, Deborah
Jarmon, Adams Kondeh, Andrew Loomis, and Christine Allen.




                                           2009 Recovery Act – Job Corps Construction Contracts
                                      29                           Report No. 18-10-005-07-001






    TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

    Online: http://www.oig.dol.gov/       hotlineform.htm
    Email: hotline@         oig.dol.gov

    Telephone:   1-800-347-3756
    202-693-6999

    Fax:          202-693-7020

    Address:      Office of Inspector General
                  U.S. Department of Labor
                  200 Constitution Avenue, N.W.
     Room                S-5506
                  Washington, D.C. 20210





